OIG Investigative Reports Press Release Madison. WI., 07/09/2014 - Cousins Sentenced for Role in Student Loan Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
WESTERN DISTRICT of WISCONSIN
NEWS
Cousins Sentenced for Role in Student Loan Fraud Scheme
FOR IMMEDIATE RELEASE
July 09, 2014
MADISON, WIS. -- John W. Vaudreuil, United States Attorney for the Western District of Wisconsin, announced that Valencia Jenkins, 33, Lithonia, Ga., and her cousin Ricco Jenkins, 37, Chicago, were sentenced yesterday by U.S. District Judge Lynn S. Adelman for their roles in defrauding the Federal Student Aid program.  Valencia Jenkins was sentenced to 14 months in federal prison, and Ricco Jenkins was sentenced to one year and a day in federal prison.  The court also ordered each defendant to serve three years of supervised release upon release from prison and to pay $417,722 in restitution.
On June 5, 2103, a federal grand jury sitting in Madison returned an 11-count indictment charging the two defendants and Valencia Jenkins’ sister -- Sharhondalynn Lathan, 30, also of Lithonia, Ga. -- with mail fraud and identity theft arising from an eight-year scheme to defraud the Federal Student Aid program.
Valencia Jenkins and Sharhondalynn Lathan each pleaded guilty to one count of mail fraud on December 17, 2013.  On March 6, 2014, Ricco Jenkins pleaded guilty to one count of mail fraud. On April 15, 2014, Sharhondalynn Lathan was sentenced to six months in federal prison, followed by three years of supervised release, and ordered to pay $417,722 in restitution.
From January 2003 through March 2011, the defendants used in excess of 20 persons’ personal identifiers to fraudulently apply for federal student financial aid and thereby defrauded the United States of over $400,000.  The three defendants admitted receiving financial aid for which they were not eligible and also admitted using the funds for purposes unrelated to post-secondary education. None of the three defendants has a high school diploma or general education development (GED) certificate.
Valencia Jenkins and Sharhondalynn Lathan assisted family members, friends, and others in obtaining financial aid for which they were not eligible.  Ricco Jenkins participated in the scheme and referred people to Valencia Jenkins to apply for financial aid.
The U.S. Department of Education’s mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access. Fraud rings mainly target lower cost institutions because federal student aid awards easily satisfy tuition there, resulting in a higher award balance paid to the student, intended for educational expenses such as books and room and board. The award balance is what the fraud ring participants seek.  But they have no intention of pursuing a degree, and often are not even eligible for federal student aid because they do not have a legitimate high school diploma or GED.
The charges against Valencia Jenkins and Ricco Jenkins were the result of an investigation conducted by Office of Inspector General, U.S. Department of Education, and the U.S. Postal Inspection Service.  The prosecution of the case has been handled by Assistant U.S. Attorney Peter M. Jarosz.
Top
Printable view
Last Modified: 07/11/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov